21r

URg

3fn tfje

Supreme Court of tfje ©ntteij
H>tate£

Supreme Court, U.S.
FILED

OCT 0 1 2021
OFFICE OF THE CLERK

Sasha McGarity
Petitioner,
v.

Birmingham Public Schools
Respondents
ON PETITION FOR A WRIT OF
CENTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE SIXTH
CIRCUIT
PETITION FOR A WRIT OF CENTIORARI

Office of:
Sasha McGarity
P.O. Box 71810
Madison Heights,
MI 48071
(586)-845-1700
saskatoonbookart@gmail.com

1

QUESTIONS PRESENTED
i.

Does filing an answer with the court
via electronic means but failing to
serve the plaintiff satisfy service of
process in accordance with 28 U.S.
Code § 3004 and 28 U.S. Code 1652?

li.

Should the court uphold establishing
pretext in race discrimination as not
having to be “so apparent as to jump
off the page and slap you in the face”
Anthony Ash et al. v. Tyson Foods,
INC 546 U.S. 454(2006)

in.

Is establishing the but-for cause
standard for retaliation
limited to one decision maker’s
motives?

IV.

Should assertions of harassment and
hostile work environment be excluded
due to applications of state laws?

2

LIST OF PARTIES
Petitioner, Sasha McGarity an individual
and citizen of the state of Michigan is the PlaintiffAppellant in these proceedings. Respondent,
Birmingham Public Schools (BPS) are the
Defendant-Appellees in these proceedings below.

RELATED CASES
Ash v. Tyson Foods, Inc., 546 U.S. 454 (2006
Back v. Hastings On Hudson Union Free Sch. Dist., 365
F.3d 107 (2d Cir. 2004)
Brotherhood of Teamsters v. United States
431 U.S. 324 (1977
EEOC v. American Glory Restaurant Corp.
Civil Action No. l:20-cv-00184
EEOC v. Workplace Staffing Solutions, L.L.C.,
Case No. l:15cv360LG-RHW
Jackson v. Ala. State Tenure Comm’n,
405 F.3d 1276, 1289 (11th Cir. 2005)
Loudermilk v. Best Pallet Co., 636 F.3d 312
315 (7th Cir.2011
Shager v. Upjohn Co., 913 F. 2d 398 - 1990

3

TABLE OF CONTENTS
1
QUESTIONS PRESENTED
2
LIST OF PARTIES..............
2
RELATED CASES...............
4
INDEX TO APPENDICES..
5
TABLE OF AUTHORITIES.
5
STATUTES AND RULES...
5
OTHER.................................
6
OPINIONS BELOW............
6
JURISDICTION..................
CONSTITUTIONAL STATUTORY PROVISIONS.6
7
STATEMENT OF THE CASE............
I.
FACTUAL BACKGROUND
II.
PROCEEDINGS IN DISTRICT COURT...8
III. PROCEEDINGS IN SIXTH CIRCUIT...... 10
REASONS FOR GRANTING THE WRITE............ 11
I.
Default Judgment-The Appellate court’s
decision raises a serious issue important
Constitutional law..................................... 11
II.
Disparate Treatment & Pretext- The Appellate
Court’s decision conflicts with Supreme Court
12
decision
Retaliation & Causation- The Sixth Circuit
conclusion contradicts with other Supreme court
14
decisions
Harassment & Hostile work environment- The
IV.
Appeals Court decision is clearly erroneous. 16
16
CONCLUSION
III.

CERTIFICATE OF SERVICE
APPENDIX A
APPENDIX B
APPENDIX C

17

4

INDEX TO APPENDICES
Appendix A
Opinion in the United States Court
of Appeals for the Sixth Circuit
(September 7, 2021)
Appendix B
Report & Recommendation and
Order in United States Eastern
District Court of Michigan
(November 19, 2020)
Appendix C
Report & Recommendation and Order
On Default Judgment in the United States
Eastern District of Michigan
(November 14, 2019)

5

TABLE OF AUTHORITIES
PAGE NUMBER

CASES

EEOC v. Workplace Staffing Solutions, L.L.C.
Case No. l:15cv360LG-RHW...............................

11

Ash v. Tyson Foods, Inc., 546 U.S. 454 (2006)

12

Brotherhood of Teamsters v. United States
431 U.S. 324 (1977)..........................................

12

Jackson v. Ala. State Tenure Comm’n,
405 F.3d 1276, 1289 (11th Cir. 2005)...

12

Shager v. Upjohn Co., 913 F. 2d 398 - 1990

13

Loudermilk v. Best Pallet Co., 636 F.3d 312
315 (7th Cir. 2011).............................................

15

Back v. Hastings On Hudson Union Free Sch. Dist., 365
15
F.3d 107 (2d Cir. 2004)
EEOC v. American Glory Restaurant Corp.,
Civil Action No. l:20-cv-00184........................

16

STATUES AND RULES
28 U.S. Code
§1652............
42U.S.C.
§12203.........

11
14

OTHER
Federal Rules of Civil Procedures 55....
Michigan Civil Procedures (MCR 2.108

11
11

6

OPINIONS BELOW
The Sixth Circuit Court opinion is unreported and
reproduced in Appendix A. The Eastern District
Court of Michigan opinion is unreported
and reproduced in Appendix B.

JURISDICTION
The Sixth Circuit court judgment was entered
September 7, 2021. This court has jurisdiction under 28
U.S.C. §1254(1)

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Title VII of the Civil Rights Act of 1964
provides:
(a) It shall be an unlawful employment
practice for an employer (1) to fail or refuse to hire or to discharge any
individual. . . because of such individual’s
race, color, religion, sex, or national origin; or
(2) to limit, segregate, or classify his
employees or applicants for employment in
any way which would deprive or tend to
deprive any individual of employment
opportunities or otherwise
adversely affect his status as an employee,
because of such individual’s
race, color, religion, sex, or national origin.
42 U.S.C. § 2000e-2(a).
42 U.S. Code § 12203.Prohibition against
retaliation and coercion
28 U.S. Code § 1652 - State laws as rules of
decision

7

STATEMENT OF THE CASE
I.

Factual Background

August 2018, Sasha McGarity was hired as a special
education paraprofessional for BPS. Birmingham Public
Schools is an affluent school district and according to the
ACS school district profile, predominately Caucasian.

ACS Sd-od District FVrfile 201S-18

m

■.Vhr.9

8%

3%

3%

Slack

HEoere

Asian

Despite the racial inequalities among employees,
McGarity was exceeding her performance standards and
received a letter of recommendation after only 2 months of
employment. BPS hired McGarity in a secondary role at
the elementary school.
■MlMlEMBU

nw*u»i— reiwiwr-

---

ifrrffr-1... Jati rtmhAA

-

<22.

-j -_n

—

AiAum*

_Q®»c

J1

n_— jaw

Unlike
the
other
three
special
education
paraprofessionals, McGarity was an aspiring teacher and
begin to associate and make acquaintances with teachers
and employees outside the special education department.
December 11, 2018, McGarity notified Weiss she would be
late to a meeting due to her secondary role at the school.

8

Weiss and Theys reported McGarity to the assistant
principal. December 12, 2018, Pesamoska, masking the
meeting as a getting to know you conference revealed to
McGarity his true motives for the gathering was the
“girls” reported her. Pesamoska directed McGarity to
meet with Weiss & Theys to keep the lines of
communication open.
December 19, 2018, McGarity met with Weiss and
Theys as Pesamoska directed. Upon learning Weiss
reported McGarity because she failed to acknowledge or
greet her in the hallway, McGarity expressed discontent.
McGarity’s assertiveness frustrated Weiss who stated,
“Why don’t you put in your two weeks notice and leave.”
Pesamoska begin a series of bias performance
investigations in order to appease Weiss & Theys
discontent with McGarity standing up them.
In a
meeting with McGarity on December 20, 2018, Pesamoska
revealed to McGarity that his mentor Mahler expressed
concern over his one-sidedness in the conflict. Shocked at
Pesamoska’s own admittance of prejudice, McGarity in
distress requested she have Christmas recess to think
things over. Pesamoska granted her request.
January 1, 2019, McGarity informed Pesamoska that
she would like to stay at the school and work things out
but would like to invite a union rep to the reconciliation
meeting with Weiss & Theys. In panic, Pesamoska
disinvited Weiss & Theys invited Mahler, Special
education director and Niforos, EEOC compliance
officer/Superintendent of Human resources. On January
10, 2019, Pesamoska spewed out several lies about
McGarity’s supposed performance failures.
McGarity
Without independent
contested all of them,
investigations by Mahler, Niforos, or Dalton (union rep),
she was terminated on the spot. McGarity immediately
filed a complaint of discrimination and retaliation with
the EEOC and received her right to sue in February 2019.
II. Proceedings in Eastern District Court of Michigan
In May 2019, McGarity sued BPS in Eastern District
Court of Michigan for Title VII claims of race
discrimination, retaliation, and harassment. McGarity
moved for default judgment but the district court denied
the motion asserting failure to obtain entry of default by

9

the clerk. BPS answer submitted only to the court via
electronic means rendered the Plaintiff served.
May 18, 2020, Plaintiff moved for summary judgment
because the facts she presented could not be disputed.
The district court confirmed McGarity has established a
prima facie case of race discrimination but denied the
motion for summary judgment in whole. The trial court
states, “Whether McGarity occasionally communicated
with her colleagues via text message is immaterial to the
reason she was terminated — her failure to communicate
in-person regularly about the students’ needs while at
work.
Next, the district court decided McGarity failing to,
“raise a material question of fact that Mahler’s
attendance at the termination meeting was in any way a
motivating factor in the decision to terminate her, or that
the proffered reasons for her termination were pretext.
Additionally, the trial court decided, “McGarity has failed
to raise a material question of fact that Principal
Pesamoska reasonably believed the reasons for
terminating McGarity were true due to his own
observations and investigation.
Lastly, the trial court asserts Shimshock is not a
similarly situated because, the “incident in question
involved an agitated student who became physical,
throwing items and grabbing Shimshock around her legs.
(ECF No. 63-3, PageID.934.) Shimshock radioed for
assistance, but did not physically engage with the
student. (Id.) BPS put Shimshock on paid leave while it
investigated this incident. (Id.) BPS determined that
Shimshock responded appropriately.
The district court denied the Plaintiffs retaliation claim
asserting, “even assuming McGarity can satisfy the first
three elements of a retaliation claim, BPS is entitled to
summary judgment because she fails to raise a material
question of fact as to the issue of causation. Additionally,
the district court determined, “thus, McGarity’s refusal to
communicate with the LRC teachers after January 1st is
an intervening event that is a legitimate reason for her
termination, and McGarity cannot prove that but for her
earlier “request” for a union representative she would
have remained employed.
On claims of harassment, Eastern District Court of
Michigan
denied
McGarity
summary
judgment

10

exclaiming, “The isolated non-race-based comment alleged
by McGaritv clearly does not meet that high threshold.
See Id. (non-race-based comments that reflect on the
plaintiffs work habits rather than racial animosity do not
create a hostile work environment).
III. Proceedings in the Sixth Circuit Court of Appeals
The Appellate Courts decided, “the Plaintiff must
obtain a clerk’s entry of default before the clerk or court
may enter default judgment.” The Sixth Circuit decided,
“McGarity filed her first request for an entry of default on
July 1, well after BPS filed its answer with the court on
June 12, the clerk was under no obligation to enter a
default against BPS.” Therefore the Sixth Circuit
confirmed the district court’s decision.
In the matter of race discrimination disparate
treatment, the Appellate court’s states, “Inconsistencies
are inevitable when the record takes into account
numerous documents and witness statements, but
McGarity does not identify any blatant contradictions,
only factual determinations made by the district court
that she disagrees with.”
On the claim of retaliation, the appellate court
decided, “In either case, McGarity’s failure to depose
Mahler truncated the necessary “inquiry into the motives
of an employer” to develop the issue of causation. Also,
the circuit court determined, “In any event, the district
court denied the retaliation claim primarily by identifying
an intervening event that broke the causal connection.
Specifically, Pesamoska had told McGarity that she must
maintain communication with the LRC teachers in order
to continue as a paraprofessional. “After McGarity had
requested the presence of a union representative in her
upcoming meeting with Pesamoska and other school
officials, Pesamoska learned that McGarity had not
talked at all with the LRC teachers in the weeks after he
had stressed with her the importance of maintaining
communication; that lack of communication persuaded
Pesamoska to move toward dismissing McGarity from her
position. Because McGarity does not raise any arguments
toward identifying a genuine dispute of material fact over
this intervening event, the district court’s conclusion must
be affirmed.”

11

Finally, on the claim of harassment, the Circuit
court concluded, “In any case, McGarity now concedes
that Weiss’s words “are not unlawful under [T]itle VII,”
but she argues that they are unlawful under “the common
tort law.” Unfortunately for McGarity, she did not assert
such a state-law claim below, and we will not consider it
in the first instance on appeal.

REASONS FOR GRANTING THE PETITION
I.

Default Judgment-The Appellate court’s
decision raises a serious issue important
Constitutional law.

28 U.S. Code § 1652 designate state laws as rules of
decision in civil actions. Therefore, Michigan Rules of
Civil Procedures established by the constitution and laws
of the State of Michigan states, “A defendant must serve
and file an answer or take other action permitted by law
or these rules within 21 days after being served with the
summons and a copy of the complaint (MCR 2.108). The
Defendants filed an answer with the court but failed to
serve the Plaintiff-Appellate. Plaintiff-Appellate made
several attempts to file default but the clerk refused to
certify. Birmingham Public Schools finally served the
Plaintiff its answer on July 12, 2019 which is well passed
the June 11, 2019 deadline. This lack of service of process
by experienced Defendants prejudiced the Plaintiff by
delaying these proceedings and prolonging her emotional
distress and suffering. No proof of service is on docket
from Birmingham Public schools for June 12, 2019. The
Defendants knowingly filed electronically well aware that
the Plaintiff was not a registered user. While Pro se
litigants follow the proper procedures or risk dismissal,
the same should be afforded to Defendants who attempt
to circumvent proper service of process. Plaintiff prays
that the justice scales would balance by holding
Birmingham Public schools accountable for insufficient
service of process.
The Sixth Circuit Courts decision is clearly incorrect.
Rule 55(b) allows for default by the court even if the party
has appeared. Birmingham Public school responded to
the court but failed to serve the Plaintiff. Similarly, after

12

being served with notice of EEOC’s suit, the company
failed to respond EEOC's allegations {EEOC v. Workplace
Staffing Solutions, L.L.C., Case No. l:15cv360LG-RHW).
Therefore, default judgment against the Birmingham
Public Schools should be granted.
II.

Disparate Treatment & Pretext- The Appellate
Court’s decision conflicts with Supreme
Court decision

In the case of Anthony Ash et al. v. Tyson Foods, INC
546 U.S. 454 (2006) where the Supreme court disagree
when the Eleventh Circuit held that Ash’s evidence did
not meet the standard for establishing pretext: the
disparity in qualifications needed to be "so apparent as
virtually to jump off the page and slap you in the face."
McGarity provided a host of evidence to prove
communication with the teachers, accurate if not superior
job performance, as well as numerous contradictory
statements from BPS in chart form to prevent errors for
the Sixth Circuit. The circuit court apparently neglected
to say whether the evidence was sufficient to prove or
disprove pretext. It is not just that McGarity disagrees
with the circuit court but the evidence disagrees with the
trial courts and circuit courts determinations.
Race discrimination amongst the educated, wealthy,
and elite is not blatant but masked as if hidden under a
white sheet. 2015-2019 BPS district demographic
statistics prove racially disproportionate with 83%
Caucasian and only 8% African Americans.
In International Brotherhood of Teamsters v.
United States, 431 U.S. 324 (1977), a case brought under
the “pattern or practice" provision of Title VII,
the Court stated that “statistics showing racial or ethnic
imbalance are probative ... because such imbalance is
often a telltale sign of purposeful discrimination.”
McGarity, excelling in this environment would not be
applauded by everyone.
McGarity showed pretext by pointing to
inconsistencies and contradictions in BPS arguments.
A plaintiff can show pretext by pointing
to “weaknesses, implausibility, inconsistencies,
incoherencies, or contradictions" in
the defendant’s proffered legitimate reasons for its action,

13

such that a reasonable fact finder could rationally find
them unworthy of ci’edence ( Jackson v. Ala. State
Tenure Comm’n, 405 F.3d 1276, 1289 (11th Cir. 2005).
Mahler did not recommend her for the position. Even if
she had, Mahler and/or Niforos acting on behalf of
another biased employee, Pesamoska cannot escape
responsibility. Mahler (Pesamoska's mentor) could only be
made aware of the conflict by Pesamoska or her daughter,
Theys.
In Shager v. Upjohn Co., 58 Judge Posner first coined
the term “cat’s paw” to describe a situation where a biased
subordinate with no decision making authority dupes the
unbiased decision maker into taking adverse employment
actions against an unfortunate employee.” In this
instance, Pesamoska is the biased subordinate and
Niforos is the decision-maker. Mahler and presumable
Niforos were cognizant of Pesamoka’s discriminatory
behavior and cannot escape liability according to the
Seventh Circuit, “supervisor’s recommending termination
without conducting an independent investigation cannot
escape liability.” Niforos’ email clearly infers that the
EEOC compliance officer had no intention of giving
McGarity any credence in the matter. Niforos’
hurriedness to resolve can be proffered as race
discrimination. There is no other reason for haste but that
McGarity is African American and her discovery of
Pesamoska’s prejudice.
Dean Niforos
From:
Sent:
To:
Subject:

Dean Niforos

Sasha McGarity

Hi Jason,

I've been speaking with Laura, who shared that you've been having concerns about para Sasha McGartty.
let's talk later today or tomorrow, because she is on probation only through January 22—.

Dean T. Niforos, SPHR
Assistant Superintendent for Human Resources
Birmingham Public Schools
(J4B) 203-3032

#^V

w

Plaintiff asks the Supreme Court to review Shimshock,
Theys, and Tomaselli as similarly situated employees.
During discovery, BPS stated only one employee was
disciplined for a cell phone violation in the past 5 years.

14

Shimshock originally testified she was never reprimanded
for striking a student during her deposition with
McGarity but then recanted her story to counsel for the
defendants., hence inconsistencies by BPS.
Theys’ dispute with McGarity and having her mother,
Mahler as a decision maker is clearly a conflict of interest
and a demonstration of BPS non-compliance with its own
policies. Finally, Tomaselli has the same amount of
experience as McGarity, remained employed when in
person communication was prohibited while McGarity
was fired for supposed lack of communication (in person
communication determined by the trial court) satisfies the
Sixth Circuits assertion that McGarity only established
her race. If in person communication was revealed
during discovery McGarity would have subpoenaed video
and has since tried to obtain the footage from another
source.
III.

Retaliation & Causation• The Sixth Circuit
conclusion contradicts with other
Supreme court decisions

42 U.S. Code § 12203 and Title VII prohibits
retaliation. The but-for causation standard is not limited
to Mahler as the Circuit Court claims. Mahler, Niforos,
and Pesamoska played a role in the decision to end
McGarity’s employment. EEOC compliance officer,
Niforos’, email to Pesamoska instructing him to act
quickly because the Plaintiff-Appellant probationary
period was ending infers other motive. If McGarity was
white, what would be the hurry in dismissal without
proper investigation? An EEOC compliance officer is
tasked to uphold regulations, policies, and fair treatment
of employees. Niforos had already made a decision
without hearing from McGarity. Plaintiff-Appellant
provided a heighten causation based upon Pesamoska’s
own testimony of wanting to become a principal his whole
life. Hence, McGarity’s awareness of his racism and now
involving the union would potentially render his dreams
deferred.
The Supreme Court should review the timing of this
supposed intervening coined by the lower courts. There
was no ultimatum given to McGarity in order to continue
her employment. If this were true, McGarity would have

15

no need to contact Dalton (union rep) for reasons for
termination. Additionally, Dalton (union rep) did not even
know the reasons for termination himself. Therefore, no
mention of a lack of communication was mentioned at the
surprise termination meeting only Pesamoska ranting lies
in order to prevent any further exposure of his prejudice.
All the more, BPS has now switched the timing of this
supposed lack of communication from Weiss’ declaration
stating “no communication on the first day of school,” to
October 2018, and now January 2019. Adverse reactions
due to ace discrimination is masked in incalculable job
standards as in the case of Back v. Hastings On Hudson
Union Free Sch.Dist., 365 F.3d 107 (2d Cir. 2004), an
African American woman terminated for supposed lack of
organizational and interpersonal skills. It is nonsense to
consider such a derived and undocumented performance
parameter as lack of communication.
The Defendants proffered reasons for termination
are concocted. McGarity was the only one given directives
that were ignored and is held solely responsible for
making amends for the dispute with the teachers. Not one
directive was given to the teachers which furthers
supports disparate treatment.
In order to survive summary judgment, BPS
created a book of bogus declaratory statements from
fellow employees and even asserted the front desk
secretary as a witness to McGarity’s supposed lack of
communication. The Sixth Circuit neglects to consider
the merit of BPS assertion as well as proximity between
the Plaintiff-Appellant’s protected activity and
Pesamoska’s adverse actions. Loudermilk v. Best Pallet
Co., 636 F.3d 312, 315 (7th Cir. 2011)
IV.

Harassment & Hostile work environment- The
Appeals Court decision is clearly
erroneous

The Supreme Court should review the Sixth
Circuit’s decision because hostile environment
harassment is another form of intentional discrimination
prohibited by Title VII and Michigan state laws.
Harassment becomes unlawful where 1) enduring the
offensive conduct becomes a condition of continued
employment, or 2) the conduct is severe or pervasive

16

enough to create a work environment that a reasonable
person would consider intimidating, hostile, or abusive.
McGarity was forced to continue working with and for a
teacher who recommended she “put in her two weeks
notice and leave.”
The lower courts are incorrect in stating that this
single comment would not cause a hostile work
environment for McGarity. This same teacher would
provide input to Pesamoska and other decision makers on
whether McGarity successfully completed her
probationary period. After this incident, McGarity’s
schedule changed to assisting many students and
teachers to now assisting one student in one classroom.
Similarly, the Supreme Court should consider EEOC v.
American Glory Restaurant Corp., Civil Action No. 1:20cv-00184, African Americans were assigned less desirable
duties when objecting to ill treatment. After Christmas
break, it was clear that everyone including Weiss’s
friends/co-workers were made aware of the situation. The
law makes Birmingham Public School liable for
harassment by a supervisor that results in negative
employment action or failure to promote or hire.
McGarity’s objection to the Weiss’ comments was
the spark that initiated biased performance investigations
by the Pesamoska who would make Weiss’ command
reality. Pesamoska even offered McGarity two weeks
pav to leave, hence even more correlation between
actions.

CONCLUSION
The petition for writ of certiorari should be granted.
Respectfully submitted,

c—Sasha McGarity^
PO Box 71810
Madison Heights, MI 48071
(586)-845-1700
saskatoonbookart@gmail.com
Date: October 01, 2021

